No. 20-472

In the Supreme Court of the United States
HOLLYFRONTIER CHEYENNE REFINING, LLC,
et al.,

Petitioners,

v.

RENEWABLE FUELS ASSOCIATION, et al.,

Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit
BRIEF OF ADVANCED BIOFUELS
ASSOCIATION AS AMICUS CURIAE
SUPPORTING RESPONDENTS
Rafe Petersen

Counsel of Record

Holland & Knight LLP
800 17th Street, N.W., Suite 1100
Washington, D.C. 20006
(202) 419-2481
rafe.petersen@hklaw.com

March 31, 2021

Counsel for Amicus Curiae
Advanced Biofuels Association

i
TABLE OF CONTENTS
INTEREST OF AMICUS CURIAE ..................... 1
OVERVIEW OF THE RFS PROGRAM AND
SMALL REFINERY EXEMPTIONS ................... 2
SUMMARY OF ARGUMENT............................ 11
ARGUMENT ...................................................... 13
I.

The ability of EPA to issue sporadic,
unforeseeable, and largely unreviewable
exemptions to small refineries imposes
significant economic damage on biofuels
producers. ............................................. 13

II.

Affirming the Tenth Circuit’s opinion
will rightfully undercut EPA’s ability to
arbitrarily award secret financial
windfalls to small refineries that escape
judicial review and disrupt biofuels
markets. ............................................... 18

CONCLUSION ................................................... 24

ii
TABLE OF AUTHORITIES
Page(s)
Cases

Advanced Biofuels Ass’n v. EPA,

792 Fed. Appx. 1 (D.C. Cir. 2019) ............... passim

Advanced Biofuels Ass’n v. EPA,

No. 18-1115, 2019 WL 2615356 (D.C.
Cir. June 25, 2019)................................... 17, 19, 22

Renewable Fuels Ass’n v. EPA,

No. 19-1220 (D.C. Cir. Oct. 22,
2019) .....................................................................22

Renewable Fuels Ass’n v. EPA,

No. 18-2031, 2021 WL 602913 (D.C.
Cir. Feb. 16, 2021)............................................5, 21

Statutes
42 U.S.C. §7545(o)(9)(A)(i) ..........................................3
42 U.S.C. § 7545(o)(9)(B)(i) ............................. 4, 18, 24
Other Authorities
Calumet Specialty Products Partners,
L.P. 2017 Form 10-K, p.19,
https://www.sec.gov/Archives/edgar/
data/1340122/000134012218000067/
clmt-20171231x10k.htm ........................................5

iii
EPA, Denial of Small Refinery GapFilling Petitions (Sept. 14, 2020),
https://www.epa.gov/sites/production
/files/2020-09/documents/rfs-denialsmall-refinery-gap-filling-petitions2020-09-14.pdf. ..................................................6, 7
Jarrett Renshaw, U.S. Refiners Reap

Big Rewards from EPA Biofuel
Waivers, Reuters (May 8, 2018) ..........................21

Letter from William Wehrum, EPA
Assistant Administrator, to Charles
Grassley, U.S. Senate (July 12,
2018) .......................................................................5
Office of Policy & Int’l Affairs, Dep’t of
Energy, Small Refinery Exemption

Study

(Mar. 2011), p. vii,
https://www.epa.gov/sites/production
/files/2016-12/documents/smallrefinery-exempt-study.pdf. ....................................3

Small Refinery Exemptions and
Biomass-Based Diesel Demand
Destruction, FarmDoc Daily (9):45

(Mar. 14, 2019),
https://farmdocdaily.illinois.edu/201
9/03/small-refinery-exemptions-andbiomass-based-diesel-demanddestruction.html ....................................................9

iv
U.S. Energy Information
Administration, EPA refinery

exemptions reduced renewable fuel
blending requirements in 2018,

https://www.eia.gov/todayinenergy/d
etail.php?id=41794 ................................................8
U.S. Energy Information
Administration, U.S. Biodiesel Plant
Production Capacity (Oct. 23, 2020),
https://www.eia.gov/biofuels/biodiese
l/capacity/ .............................................................17
U.S. EPA, Denial of Petitions for
Rulemaking to Change the RFS
Point of Obligation, EPA-420-R-17008 (Nov. 2017), ...................................................16
U.S. EPA, Fuels Registration,

Reporting, and Compliance Help:
RINS Generated Transactions,

https://www.epa.gov/fuelsregistration-reporting-andcompliance-help/rins-generatedtransactions............................................................8
U.S. EPA, Regulation of Fuels and Fuel

Additives: Renewable Fuel Standard
Program; Final Rule, 72 Fed. Reg.

23900, 23926 (May 1, 2007) .................................16
U.S. EPA, Renewable Fuel Standard
Program, 72 Fed. Reg. 23900, 23924
(May 1, 2007) .........................................................3

v
U.S. EPA, RFS Small Refinery
Exemptions,
https://www.epa.gov/fuelsregistration-reporting-andcompliance-help/rfs-small-refineryexemptions .............................................................6

U.S. Ethanol Groups Bristle as EPA
Frees Refiners from Biofuels Law,

Reuters (Apr. 4, 2018), available at
https://www.reuters.com/article/ususa-biofuels-epa-refineries/u-sethanol-groups-bristle-as-epa-freesrefiners-from-biofuels-lawidUSKCN1HB2AH (last visited Dec.
19, 2018). ................................................................9

1
INTEREST OF AMICUS CURIAE
The Advanced Biofuels Association (“ABFA”)1
is an independent 501(c)(6) nonprofit trade
association. ABFA represents more than 35
companies in the United States and around the world
engaged in the production, marketing, and
distribution of advanced renewable fuels. Currently,
ABFA members produce over 4.7 billion gallons of
renewable fuel each year, including billions of gallons
of biodiesel and renewable diesel as well as a variety
of drop-in fuels such as renewable gasoline,
isobutanol, dimethyl ether, cellulosic diesel, and
cellulosic heating oil.
ABFA’s mission is to secure on behalf of its
members a stable and predictable regulatory
environment and level playing field for advanced
renewable fuels. ABFA has been particularly active,
including through litigation, in connection with
disputes about how the EPA has used or abused its
authority regarding small refinery exemptions
because the issuance of such exemptions affects the
market for advanced renewable fuels as well as the
market value for “Renewable Identification
Numbers,” as discussed below.

Pursuant to Sup. Ct. R. 37.3(a), ABFA states that counsel for
Petitioners and Respondents have provided written consent to
the filing of this brief. Pursuant to Sup. Ct. R. 37.6, ABFA
affirms that no counsel for a party authored this brief in whole
or in part; no such counsel or a party made a monetary
contribution to fund its preparation or submission; and no
person other than ABFA, its members, or its counsel made such
a monetary contribution.

1

2
OVERVIEW OF THE RFS PROGRAM AND SMALL
REFINERY EXEMPTIONS
Advanced biofuels are regulated under the
Clean Air Act’s Renewable Fuel Standard (“RFS”)
provisions. The background, purpose, and structure of
the RFS program are set forth succinctly in the briefs
of Respondents and Federal Respondent. Resp’ts’ Br.
6-8, Fed. Resp’t’s Br. 4-9.
Through the RFS program, the percentage of
biofuels required to be blended into the nation’s
gasoline and diesel supplies is slowly but steadily
increased by EPA, furthering the goal of the RFS
program to help achieve national energy
independence.2 From the inception of the RFS
program in 2005 until approximately 2017, the
program functioned largely as intended. This
predictable market for biofuels allowed American
innovation to flourish and biofuels began to be
produced across the nation from a wide variety of
feedstocks. ABFA’s members are able to generate
biofuels from used cooking oil, landfill gas, grease
collected at wastewater treatment plants, soybean oil,
corn oil, and organic waste biodigesters.
In 2005, at the outset of the RFS program,
there were 59 petroleum refineries defined as “small
refineries.”3 These refineries were awarded a blanket
The RFS program sought “to reduce dependence on foreign
sources of petroleum, increase domestic sources of energy, and
help transition to alternatives to petroleum in the transportation
sector.” U.S. EPA, Renewable Fuel Standard Program, 72 Fed.
Reg. 23900 (May 1, 2007).
3 Small refineries, defined at 42 U.S.C. § 7545(o)(1)(K), have an
average aggregate daily crude oil throughput of 75,000 barrels
or less per day.
2

3
temporary exemption from complying with the biofuel
blending mandates until calendar year 2011. See 42
U.S.C. §7545(o)(9)(A)(i). At the end of the temporary
blanket exemption, “small refineries would be
required to meet the same renewable fuel obligations
as all other refineries, unless their exemption is
extended . . . .”4 To determine whether an additional
blanket exemption was warranted, the U.S.
Department of Energy (“DOE”) solicited detailed
information from each of the 59 facilities that
qualified as a “small refinery” to determine the
economic impact of the RFS program. Of those 59
facilities, only 18 came forward with information
about the hardships they might face if they were
required to comply with RFS requirements.5 DOE
attributed the industry’s low participation rate to the
fact that many small refineries operating as “part of
large integrated oil companies or large geographically
diverse refiners . . . notified DOE that they were not
going to respond to the survey because they did not
believe they faced disproportionate economic
hardship.”6 In light of this record, EPA decided to
extend the temporary small refinery exemption for
two years – compliance years 2011 and 2012 – to 24
small refineries. The other 35 small refineries did not
get such an exemption, meaning that they were

U.S. EPA, Renewable Fuel Standard Program, 72 Fed. Reg.
23900, 23924 (May 1, 2007).
5 Office of Policy & Int’l Affairs, Dep’t of Energy, Small Refinery
Exemption
Study
(Mar.
2011),
p.
vii,
https://www.epa.gov/sites/production/files/201612/documents/small-refinery-exempt-study.pdf.
4

6

Id.

4
required to comply with RFS requirements starting in
2011.
The only avenue provided to small refineries to
avoid RFS obligations once these temporary
exemptions ended was a process where “[a] small
refinery may at any time petition the Administrator
[of EPA] for an extension of the exemption under
subparagraph (A) [temporary exemptions] for the
reason of disproportionate economic hardship.” 42
U.S.C. § 7545(o)(9)(B)(i).
Although the statute allowed a small refinery
to come forward to ask for an extension of its
exemption, EPA refused to make even basic
information available about the number of petitions
received, the number of petitions granted, the identity
of the small refineries benefitting from such
exemptions, or the volume of renewable fuel that
would no longer have to be blended as a result of the
exemptions.
The rationale
given for
this
unprecedented veil of secrecy was that small
refineries who were petitioning for exemptions
claimed that all the information in their petitions was
confidential business information (“CBI”). When EPA
makes a final decision on a small refinery exemption
petition, the agency treats all information in the
decision document—including information as simple
as the name of the company applying for and
receiving the lucrative exemption—as CBI. EPA
maintains that it is bound by 40 C.F.R. §§ 2.204,
2.205, and 2.208 to treat as CBI any information that
small refineries claim is confidential until EPA can
evaluate the veracity of that claim. In practice,
however, EPA makes no effort to review the small
refineries’ over-inclusive claims of CBI. For example,

5
the identity of the small refineries awarded
exemptions for the 2013 compliance year are still
secret eight years later.
Because of EPA’s treatment of exemption
requests as confidential, EPA has issued small
refinery exemptions free from oversight or scrutiny
from the public, Congress, the judicial branch, or
industry, including ABFA. EPA has even refused,
based on claims of CBI, to provide detailed
information about its small refinery exemption
decisions in response to requests from Congress.7
EPA maintains this policy even after a refinery
publicly discloses its receipt of a small refinery
exemption in public filings to the U.S. Securities and
Exchange Commission.8 Even in the face of protracted
Freedom of Information Act litigation, EPA refused to
identify the name or location of small refineries
receiving exemptions, thereby shielding those
decisions from judicial review. See Renewable Fuels
Ass’n v. EPA, No. 18-2031, 2021 WL 602913 at *1
(D.C. Cir. Feb. 16, 2021).

Letter from William Wehrum, EPA Assistant Administrator, to
Charles
Grassley,
U.S.
Senate
(July
12,
2018)
https://www.eenews.net/assets/2018/07/13/document_daily_01.p
df (“Your letter requests information related to those small
refineries granted exemptions in 2016, 2017, and 2018. EPA is
unable to provide information that is fully responsive to your
request, as we treat both the names of individual petitioners and
EPA’s decision on those petitions as Confidential Business
Information . . . .”)
8 See, e.g., Calumet Specialty Products Partners, L.P. 2017 Form
10-K, p.19 (“We have received small refinery exemptions for our
fuel products refineries for the full year 2016 and 2017.”),
https://www.sec.gov/Archives/edgar/data/1340122/00013401221
8000067/clmt-20171231x10k.htm.
7

6
Finally, in the summer of 2018, this veil of
secrecy was partially lifted when EPA – facing
political and media scrutiny and legal pressure from
ABFA – began to publish basic data9 about the
functioning of its small refinery exemption program
on an online dashboard. For compliance years 2013
to 2015, it is now known that an average of only 14
small refineries petitioned EPA for extensions of their
temporary exemptions. Over that three-year period,
EPA granted 23 of the 43 petitions received, an
approval rate of 53 percent.10
Today, EPA’s Small Refinery Exemption
Dashboard indicates that additional petitions for
small refinery exemptions for compliance years 2013
to 2015 were received. This reflects an effort by small
refineries, in response to this case, to apply for
extensions years after the fact so as to present the
illusion of having been continuously exempted from
the RFS program. To date, EPA has rejected these
attempts to obtain retroactive exemptions.11
Although it was not publicly known at the time,
for compliance year 2017, the number of small
Advanced Biofuels Ass’n v. EPA, 792 Fed. Appx. 1, 4 (D.C. Cir.
2019)(“The dashboard does not identify the refineries that
received extensions, the date of decisions, the regulatory
standards being applied to evaluate applications, or the reasons
for granting or denying the exemptions.”)
10
U.S.
EPA,
RFS
Small
Refinery
Exemptions,
https://www.epa.gov/fuels-registration-reporting-andcompliance-help/rfs-small-refinery-exemptions.
11 EPA, Denial of Small Refinery Gap-Filling Petitions (Sept. 14,
2020),
https://www.epa.gov/sites/production/files/202009/documents/rfs-denial-small-refinery-gap-filling-petitions2020-09-14.pdf.
9

7
refineries submitting petitions for extensions of
exemptions for compliance year 2016 increased
markedly from 14 the previous year to 20. Included in
these petitions were filings by at least a dozen
petitioners who did not have active exemptions—in
other words, they were seeking “extensions” of a
nonexistent exemption. The rate at which EPA
granted these petitions also increased dramatically,
without public explanation, to 95 percent (19 out of 20
petitions).12 This sudden and significant increase in
the number of SRE requests would soon ripple
through the market for biofuels and impact ABFA
members.
While EPA at this time did not publish any
information about the number of small refinery
petitions received or granted, the small refining
industry clearly got the message that the odds of
receiving an exemption had dramatically improved.
For compliance year 2018, the number of small
refineries seeking exemptions grew again, from 20 to
37, a year-over-year increase of 80 percent. Of those
37 petitions, 35 were granted exemptions, zero were
rejected, one was withdrawn, and one is still pending,
an approval rate that again approached 95 percent.
In two short years from 2016 to 2018, therefore, the
number of small refinery exemptions granted
increased fivefold, from seven to 35.13
The increased traffic in small refinery
exemptions had a direct effect on the market for
Renewable Identification Numbers (“RINs”). RINs
are the currency of the RFS program and a robust,
12
13

EPA Small Refinery Exemption Dashboard, supra note 10.

Id.

8
nationwide marketplace exists in which obligated
parties that need RINs to satisfy RFS obligations can
purchase them from companies, such as ABFA’s
members, that produce and blend renewable fuels. In
compliance year 2020, over 18 billion RINs were
generated.14
With the sudden and dramatic increase in the
number of small refinery exemptions came a
corresponding decrease in the number of RINs that
exempt small refineries needed to buy or generate.
The number of RINs exempted from the RFS program
grew from 290 million in compliance year 2015 to 1.82
billion in compliance year 2017.15 A sudden decrease
in the need of obligated parties to purchase RINs to
comply with the RFS naturally reduced the amount of
biofuels that producers of renewable fuels—such as
ABFA’s members—generate, and in turn caused RIN
prices to drop precipitously.16 Moreover, because
RINs have a two-year shelf life and no value outside
of the RFS program, producers of renewable fuel
cannot cure or minimize losses in the event of a
sudden drop in RIN demand.
Due to the secrecy surrounding EPA’s
administration of the small refinery exemptions,
ABFA and its members were not immediately aware
of EPA’s drastic increase in the number of exemptions
U.S. EPA, Fuels Registration, Reporting, and Compliance
Help: RINS Generated Transactions, https://www.epa.gov/fuels14

registration-reporting-and-compliance-help/rins-generatedtransactions.
15 EPA Small Refinery Exemption Dashboard, supra note 10.
16 U.S. Energy Information Administration, EPA refinery

exemptions reduced renewable fuel blending requirements in
2018, https://www.eia.gov/todayinenergy/detail.php?id=41794

9
that would be granted to small refineries. On April 4,
2018, Reuters published a newspaper story that EPA
had granted approximately 25 small refinery
waivers.17 The market price for RINs immediately
declined on the news and remained suppressed as
additional information emerged over the coming
years about the number of exemptions being granted
by EPA and the corresponding volume of renewable
fuels that were exempted from the RFS program. EPA
and the obligated refineries caused the RIN market to
plummet by reducing both the number of RINs that
would need to be purchased and the purchase price
for those RINs. The economic damage to renewablefuels producers caused by EPA’s small refinery
exemptions for compliance years 2017 to 2019 is
estimated to be $7.6 billion.18
In May 2018, ABFA petitioned the U.S. Court
of Appeals for the District of Columbia Circuit for
review of what it alleged was a change to the
methodology used by EPA to evaluate petitions from
small refineries alleging “disproportionate economic
hardship” and EPA’s unlawful practice of granting
extensions of temporary exemptions to small
refineries that did not receive exemptions in all prior
Jarrett Renshaw and Chris Prentice, U.S. Ethanol Groups
Bristle as EPA Frees Refiners from Biofuels Law, Reuters (Apr.

17

4, 2018), available at https://www.reuters.com/article/us-usabiofuels-epa-refineries/u-s-ethanol-groups-bristle-as-epa-freesrefiners-from-biofuels-law-idUSKCN1HB2AH (last visited Dec.
19, 2018).
18 Scott Irwin, Small Refinery Exemptions and Biomass-Based
Diesel Demand Destruction, FarmDoc Daily (9):45 (Mar. 14,
2019), https://farmdocdaily.illinois.edu/2019/03/small-refineryexemptions-and-biomass-based-diesel-demanddestruction.html.

10
compliance years. See Advanced Biofuels Ass’n v.
EPA, 792 Fed. Appx. 1, 4 (D.C. Cir. 2019). In doing
so, ABFA was the first to advance the argument that
is now before this Court, namely that EPA lacks
authority to grant an extension of a temporary
exemption from the RFS program that has lapsed.
However, because of the blanket assertion that all
aspects of considering requests for extensions are
CBI, ABFA faced numerous challenges in framing its
case.
As a result of its lawsuit, ABFA ultimately
obtained – after more than eight months of objections
from EPA and subject to a protective order – copies of
all of EPA’s final decision documents on small
refinery exemption applications for compliance years
2017 and 2018. As a general matter, these documents
confirm the story that the raw numbers tell, namely
that EPA issued dozens of “extensions” of temporary
exemptions to small refineries in 2017 and 2018 that
had not received – and in most cases had not applied
for – exemptions in preceding years. By its own words
EPA changed its methodology for determining what
constitutes “disproportionate economic hardship” in
order to allow for a flood of small refinery exemptions.
Ultimately, the D.C. Circuit held that it lacked
jurisdiction over ABFA’s claims given that the agency
had not memorialized its change in methodology in a
written memo or guidance document that constitutes
final agency action, but only expressed it in small
refinery decision documents, which amount to
individual
adjudications.
The
D.C.
Circuit
acknowledged, however, that “EPA’s briefing and oral
argument paint a troubling picture of intentionally
shrouded and hidden agency law that could have left

11
those aggrieved by the agency’s actions without a
viable avenue for judicial review. Id.
SUMMARY OF ARGUMENT
Petitioners claim that small refineries will
shutter if they are not permitted to receive sporadic
and essentially limitless exemptions from complying
with the renewable-fuel-blending obligations of the
RFS program. Pet’rs’ Br. 4, 17. Petitioners do not
acknowledge the adverse economic impact that the
renewable fuels industry must absorb when dozens of
small refineries are excused from their statutory RFS
obligations.
The briefs of Respondents and Federal
Respondent both explain at length how the small
refinery exemption mechanism in the RFS program
was designed by Congress to serve as a bridge to
compliance that would provide to struggling small
refineries the ability to use the economic windfall
from the exemptions to invest in infrastructure
upgrades or other measures to strengthen long-term
prospects for success. Resp’ts’ Br. 42-46 and Fed.
Resp’t’s Br. 24-29. This reading is consistent with the
text of the statute and the underlying purpose of the
RFS program.
The maximum downside from a small refinery
complying with the RFS program is that it must offset
its renewable fuels deficit by purchasing RINs from
the marketplace, the cost of which can largely be
passed on to consumers.19 The downside to a producer
85 Fed. Reg. 7,016, 7,067–68 (Feb. 6, 2020)( “We have reviewed
and assessed the available information, which shows that
obligated parties, including small entities, are generally able to
recover the cost of acquiring the RINs necessary for compliance
19

12
of biofuels—especially advanced biofuels produced by
ABFA’s members which tend to have high production
costs—from the sudden and unexpected reduction in
the volume of biofuels that must be blended is that
producers will be left holding fuel for which they can
no longer command a fair price. When small refineries
are excused from the obligation to blend their own
fuels or to obtain RINs, that excuse directly harms the
biofuels industry. While Petitioners and their
supporting amici curiae go to great lengths to try to
link isolated small refinery closures and conversions
to the lack of small refinery exemptions, these
closures clearly relate to external factors such as the
recent COVID-19 pandemic that have no relation to
the RFS program. ABFA’s members, on the other
hand, have suffered losses – ranging from business
closures to shelving expansion plans – that are
directly attributable to dozens of small refineries
receiving extensions of exemptions for which they
were statutorily ineligible.
This Court’s decision should be driven by the
clear intent of Congress, through the express
language used in 42 U.S.C. §7545(o)(9), to limit small
refineries’ relief from complying with the RFS
obligations to continuous extensions of their earlier
temporary exemptions. The Court should take
comfort, however, that such a ruling will have the
additional benefit of largely ending EPA’s practice of
awarding large economic windfalls to unidentified
with the RFS standards. . . . Even if we were to assume that the
cost of acquiring RINs was not recovered by obligated parties . .
. a cost-to-sales ratio test shows that the costs to small entities

of the RFS standards are far less than 1 percent of the value of
their sales.”)

13
small refineries, in unknown amounts, for unknown
reasons, through the issuance of confidential decision
documents that are largely immune from judicial
review yet send economic ripple effects through the
RINs market to the detriment of biofuels producers
and traditional refineries not receiving such largess.
ARGUMENT
I.
The ability of EPA to issue sporadic,
unforeseeable, and largely unreviewable exemptions
to small refineries imposes significant economic
damage on biofuels producers.
Petitioners portray the small refinery
exemption provisions of the RFS program as a flexible
tool created by Congress to guarantee small refineries
perpetual financial success. Regardless of the
underlying cause of a small refinery’s financial
trouble – from a global COVID-19 pandemic to its
inability to adapt to the slow and foreseeable
increases in biofuel blending requirements of the RFS
program – Petitioners believe the solution is for EPA
to issue small refineries extensions of their
exemptions from RFS obligations “at any time”
regardless of how long it has been since the small
refinery last held an exemption. Curtailing EPA’s
supposed authority to issue dozens of exemptions,
Petitioners argue, will produce a wave of small
refinery failures. Pet’rs’ Br. 4, 17. This argument
ignores the original purpose of the RFS program, its
structure, the recent history of small refinery
viability, and the countervailing harm that a RFS
program administered in that manner causes to
biofuels producers across the country.

14
Congress did not grant EPA unilateral
authority to put its thumb on the scale in order to
influence the price of biofuels. The briefs of
Respondents and Federal Respondent explain that
the small refinery exemption aspect of the RFS
program was designed by Congress to serve as a
bridge that would allow initially disadvantaged small
refineries to eventually attain the ability to ensure
perpetual compliance with the RFS biofuel blending
mandates. Resp’ts’ Br. 42-46 and Fed. Resp’t’s Br. 2429. Respondents and Federal Respondent further
explain that the plain and most logical reading of the
relevant statutory text at 42 U.S.C. §7545(o)(9) uses
the term “extension” in its temporal sense and
includes a continuity element. Resp’ts’ Br. 19-33 and
Fed. Resp’t’s Br. 17-23.
Petitioners’ claim that small refineries are on
the cusp of closure if the availability of small refinery
exemptions is curtailed is not supported by the
evidence. For compliance years 2013 to 2015, a mere
eight, seven, and seven small refinery exemptions
were
granted,
respectively.20
Nevertheless,
Petitioners do not provide evidence that any of the
remaining 50+ refineries that did not receive
exemptions during that time were forced to close.
The reason for the refineries’ continued success
without the crutch of a small refinery exemption is
their ability to purchase RINs from the open market
to compensate for their inability to blend biofuels at a
reasonable price. The refineries are able to large pass
the costs of those RINs to consumers. While EPA’s
administration of the RFS program and its
20

EPA Small Refinery Exemption Dashboard, supra note 10.

15
interpretation of relevant provisions has been
inconsistent over the years, EPA has consistently
maintained that the cost to purchase RINs on the
open market can largely be passed to consumers.
While the CAA is sprinkled with several
mandates that provide regulated parties the ability to
apply for general hardship exemptions or temporary
exemptions based on unforeseen circumstances, EPA
explained in its promulgation of its initial RFS
program regulations that the ability of obligated
parties to purchase RINs from the nationwide trading
program rendered such exemptions unnecessary
under the RFS program.
In recent rulemakings, we have included
a general hardship exemption for parties
that are able to demonstrate severe
economic hardship in complying with
the standard. We proposed not to include
provisions for a general hardship
exemption in the RFS program. Unlike
most other fuels programs, the RFS
program includes inherent flexibility
since compliance with the renewable
fuels standard is based on a nationwide
trading program, without any per gallon
requirements,
and
without
any
requirement that the refiner or importer
produce the renewable fuel. By
purchasing RINs, obligated parties will
be able to fulfill their renewable fuel
obligation without having to make
capital investments that may otherwise
be necessary in order to blend renewable
fuels into gasoline. We believe that

16
sufficient RINs will be available and at
reasonable prices, given that EIA
projects that far greater renewable fuels
will be used than required. Given the
flexibility provided in the RIN trading
program, including the provisions for
deficit carry-over, and the fact that the
standard is proportional to the volume of
gasoline actually produced or imported,
we continue to believe a general
hardship exemption is not warranted. As
a result, the final rule does not contain
provisions for a general hardship
exemption.21
A decade later and under a different
Presidential Administration, EPA’s conclusion on that
critical aspect of the RFS program had not changed.
“All obligated parties, including merchant refiners,
are generally able to recover the cost of the RINs they
need for compliance with the RFS obligations through
the cost of the gasoline and diesel fuel they produce.”22
Even if Petitioners could supply evidence of
scattered small refinery closures during the years in
which few exemptions were granted, that outcome
does not run contrary to the larger purpose of the RFS
program when you consider that during that same
time a plethora of new domestic biofuels production
facilities were constructed. For example, as of October
U.S. EPA, Regulation of Fuels and Fuel Additives: Renewable
Fuel Standard Program; Final Rule, 72 Fed. Reg. 23900, 23926
21

(May 1, 2007).
22 U.S. EPA, Denial of Petitions for Rulemaking to Change the
RFS Point of Obligation, EPA-420-R-17-008 (Nov. 2017),
https://nepis.epa.gov/Exe/ZyPDF.cgi?Dockey=P100TBGV.pdf.

17
of 2020, there are 91 operating biodiesel plants in the
United States.23 The market worked efficiently
because every party was playing by the same rules.
That changed in 2017.
Unlike traditional refineries, who always
retain the ability to purchase market rate RINs to
account for any compliance shortfall under the RFS
program, producers of renewable fuels—particularly
advanced biofuels—are left economically vulnerable
by sudden changes to the nationwide demand for their
products, which is primarily driven by the mandates
of the RFS program. When market demand for
renewable fuels declines, which occurred when EPA
removed 1.8 billion gallons of renewable fuel demand
through its issuance of an unprecedented number of
small refinery exemptions, some biofuels can no
longer be economically produced. EPA’s previous
actions destroyed demand and killed the market.
In the face of declining RIN prices following the
unprecedented wave of small refinery exemptions,
ABFA members experienced negative impact to their
revenues, delayed long-term renewable fuel
investments, and reduced biofuel blending activities
that left underutilized the blending infrastructure in
which they had already heavily invested.24 Some
U.S. Energy Information Administration, U.S. Biodiesel Plant
Production
Capacity
(Oct.
23,
2020),
https://www.eia.gov/biofuels/biodiesel/capacity/.
24 Brief of Petitioner at 81-84, 89-92 (Decl. of ABFA members M.
Whitney and J. Baines), Advanced Biofuels Ass’n v. EPA, No. 181115, 2019 WL 2615356 (D.C. Cir. June 25, 2019)(explaining
reduced blending of biofuels using existing equipment and
delayed long-term investment in biofuels in response to lower
RIN demand following large number of small refinery
exemptions).
23

18
smaller ABFA members that produce biofuels were
unable to economically produce and market their
biofuels in the wake of low RIN prices and were forced
to cease production and lay off workers.25
Accordingly, it is clear that the practical effect
of allowing EPA to grant sporadic and wildly varied
numbers of small refinery exemptions from year-toyear undermines the purpose of the RFS program to
promote domestic energy independence through the
increased utilization of renewable biofuels.
II.
Affirming the Tenth Circuit’s opinion will
rightfully undercut EPA’s ability to arbitrarily award
secret financial windfalls to small refineries that
escape judicial review and disrupt biofuels markets.
The briefs of Respondents and Federal
Respondent present compelling explanations as to
why the only logical and practical reading of RFS
small refinery extension language is for the word
“extension” in 42 U.S.C. § 7545(o)(9)(B)(i) to have a
temporal meaning and to include an inherent
continuity requirement. Resp’ts’ Br. 19-46 and Fed.
Resp’t’s Br. 17-30. It is worth noting that in ABFA’s
litigation against EPA in the D.C. Circuit, which was
the first time the question at issue regarding
extensions of exemptions was raised in federal court,
Petitioner HollyFrontier Refining and Marketing
LLC (then acting as Intervenor-Respondent in
support of EPA) agreed that the “plain meaning of the
Id. at 85-88 (Declaration of ABFA member S. Lamb explaining
that business creating renewable fuels from waste grease from
wastewater treatment plants was required to cease production
and lay off the majority of its workforce following a drop in RINs
prices).

25

19
noun ‘extension’ (or its verb, ‘extend’)” is “prolong” or
“to increase the length or duration of . . . .” Brief of
Intervenor-Respondents at 48, Advanced Biofuels
Ass’n v. EPA, No. 18-1115, 2019 WL 2615358 at *38
(D.C. Cir. June 25, 2019). Petitioner HollyFrontier
Refining and Marketing LLC now argues that
“extension” means “to grant.” Pet’rs’ Br. 18-19.
This Court’s decision should be driven by the
clear intent of Congress, through the express
language used in 42 U.S.C. §7545(o)(9), to limit small
refineries relief from complying with the RFS
obligations to extensions of their earlier temporary
exemptions. The Court should take comfort, however,
that such a ruling will have the additional benefit of
largely ending EPA’s practice of awarding large
economic windfalls to unidentified small refineries, in
unknown amounts, for unknown reasons, through the
issuance of confidential decision documents that are
largely immune from judicial review yet send
economic ripple effects through the RINs market to
the detriment of biofuels producers and refineries not
receiving such largess.
As explained above, EPA’s small refinery
exemption decisions are shrouded by secrecy. While
EPA now publishes on an online dashboard basic data
about the number of petitions for extensions of small
refinery exemptions that it has received, granted, or
denied as well as the estimated number of gallons of
renewable fuel and RINs exempted from the RFS
program, the agency still refuses to publish the
identifies of the refineries that have applied for or
received extensions of exemptions or the rationales
for those decisions. Incredibly, only EPA, the
companies and ABFA’s counsel knows who received

20
exemptions for compliance years 2016 and 2017 and
why, which is subject to a protective order.
The dubious legal rationale underpinning this
veil of secrecy is that all small refineries that petition
for extensions of exemptions claim that the
information in the petitions is confidential business
information (“CBI”). EPA then unquestioningly treats
as CBI all information in its final decision document,
even down to the name of the company seeking the
exemption. EPA claims that regulations at 40 C.F.R.
§§ 2.204, 2.205, and 2.208 require it to treat as CBI
any information that small refineries claim is
confidential until EPA can evaluate that claim. In
reality, however, EPA makes no effort to review the
small refineries’ over-inclusive claims of CBI and
never releases additional information about the
recipients of the exemptions.
EPA and the refineries had every reason to
proceed in secrecy. This practice allows EPA to issue
small refinery exemptions free from oversight or
scrutiny from the public, Congress, or courts. EPA has
refused, based on claims of CBI, to provide detailed
information about its small refinery exemption
decisions in response to requests from Congress.26
EPA maintains this policy even after a refinery
publicly discloses its receipt of a small refinery
exemption in public filings to the U.S. Securities and
Exchange Commission. Even in the face of protracted
Freedom of Information Act litigation, EPA refused to
identify the name or location of small refineries
receiving exemptions, thereby shielding those
decisions from judicial review. See Renewable Fuels
26

See Grassley letter, supra note 7.

21

Ass’n v. EPA, No. 18-2031, 2021 WL 602913 at *1
(D.C. Cir. Feb. 16, 2021).

These exemptions are lucrative for the small
refineries that receive them. While privately-owned
refineries hold their exemption status close to the
chest, public companies that must update
shareholders with the news have trumpeted their
windfalls in financial disclosures.27 It is worth noting
here that the case at hand filed by Respondents was
only made possible thanks to public disclosures made
by the companies themselves. Privately held small
refineries that may have received exemptions based
on identical agency rationales cannot, as a practical
matter, be subject to any legal challenges because
their identifies remain unknown. Before EPA began
publishing its online Small Refinery Exemption
Dashboard, this secrecy would have also allowed the
small refineries that received exemptions to dump
their now unnecessary RINs into the marketplace,
where they were privy to information that other
market participants were not. The biofuel producers,
on the other hand, were unaware that EPA was
undermining its own renewable volume obligation
(“RVO”) through dozens of small refinery exemptions
and continued to produce biofuels to meet an

Jarrett Renshaw, U.S. Refiners Reap Big Rewards from EPA
Waivers,
Reuters
(May
8,
2018),
https://www.reuters.com/article/us-usabiofuelssavings/u-s-refiners-reap-big-rewards-from-epa-biofuelwaiversidUSKBN1I91ZG
(documenting claims of cost savings of $100 million by
Andeavor, $120 million by CVR Refining, and $79 million by
Delek U.S. Holdings).
27

Biofuel

22
anticipated market demand for RINs that never
materialized.
With its final decision documents shielded from
the public scrutiny and facing an unprecedented
volume of petitions, the level of detail and legal
analysis that EPA began to provide in its final
decision documents became shockingly sparse. As
ABFA explained in the undisputed allegations in its
litigation against EPA in the D.C. Circuit, where
previous decision documents had contained 20 pages
of refinery-specific analysis, EPA’s decision
documents for compliance years 2016 and 2017 were
typically only five pages of legal boilerplate following
by a few paragraphs, or in some cases a few sentences,
of refinery specific information.28 Apparently even
this minimal amount of work proved too much for
EPA, such that for compliance year 2018 the agency
issued final determinations on 42 petitions through a
two-page letter that is currently subject to a separate
legal challenge in the D.C. Circuit.29
ABFA’s 2018 litigation against EPA was not
successful due to the fact that EPA had not yet
reduced its change in methodology for compliance
years 2016 and 2017 to a written memo or guidance
document. Hence, the D.C. Circuit found that EPA’s
Brief of Petitioner at 39-40, Advanced Biofuels Ass’n v. EPA,
No. 18-1115, 2019 WL 2615356 (D.C. Cir. June 25, 2019)(“After
May 4, 2017, however, most of EPA’s decision documents are
only five pages and after setting aside boilerplate language
contain only a short paragraph—often a single sentence—
justifying a full exemption . . . .”
29 Petition for Review at 10-11, Renewable Fuels Ass’n v. EPA,
No.
19-1220,
(D.C.
Cir.
Oct.
22,
2019),
https://www.epa.gov/sites/production/files/201911/documents/rfa_19-1220_pfr_10222019.pdf.
28

23
acknowledgement of changed methodologies in
individual decision documents were informal
adjudications that, in its estimation, did not amount
to final agency action announcing the adoption of a
new rule or methodology.30 While the D.C. Circuit
dismissed ABFA’s petition on these technical
grounds, it did not do so without first raising an alarm
about EPA’s secretive conduct that leaves aggrieved
parties without a viable avenue for judicial review:
To be sure, the EPA’s briefing and oral
argument paint a troubling picture of
intentionally shrouded and hidden agency
law that could have left those aggrieved by
the agency’s actions without a viable
avenue for judicial review. But we need
not decide in this case whether or how an
ongoing pattern of genuinely secrete law
might be challenged because the EPA’s
changed rules of decisions have been
disclosed both through the numerous
information
adjudication
decisions
recently releases to the Association and, of
particular import, the August 2019 formal
and public memorandum announcing the
EPA’s new decisional framework and
applying it to forty-two refineries. During
oral argument, the EPA acknowledged
that the August 2019 Memorandum is
‘final agency action’ to which a challenge
Advanced Biofuels Ass’n v. EPA, 792 Fed. Appx. 1, 5 (D.C. Cir.
2019)(While the [ABFA’s] petition’s identification of a pattern
across myriad circumstances may be evidence of a final agency
action, it is not itself a final agency action that, without more,
can support a petition for review.”)

30

24
could be brought if filed within the
required limitations period.31
By ruling that the plain language of 42 U.S.C.
§ 7545(o)(9)(B)(i) provides that a small refinery may
only receive an extension of its prior temporary
exemption if they have continuously received
exemptions for all previous compliance years, this
Court can restore the use of small refinery exemptions
to the approximately seven small refineries for which
it remains appropriate fourteen years after the
requirements of the RFS began to take effect and this
Court can simultaneously prevent EPA from ever
again using this system of secretive agency law to
issue an estimated $7 billion dollars of windfalls to
small refineries without any judicial or Congressional
oversight.
CONCLUSION
For the reasons set forth above, ABFA
respectfully requests that this Court affirm the Tenth
Circuit’s decision that a small refinery that did not
seek or receive an exemption under 42 U.S.C. §
7545(o)(9)(B)(i) in prior years is ineligible to receive a
further extension of exemption because at that point
there is nothing to be added to or prolonged.

31

Id.

25
Respectfully submitted,

Rafe Petersen

Counsel of Record

Holland & Knight LLP
800 17th Street, N.W., Suite 1100
Washington, D.C. 20006
(202) 419-2481
rafe.petersen@hklaw.com

Counsel for Amicus Curiae
Advanced Biofuels Association
March 31, 2021

